SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, D.C. 20543-0001

KENNETH MCBRIDE

NO. 20-7873

(PETITIONER)
Vs.

DUSHAN ZATECKY
(RESPONDENT)
PETITON FOR REHEARING ENBANC

Comes now, McBride pro se, pursuant to United StateS,Supreme Court Rule 44(2), petition this
Court for a rehearing of the denial of petitioner's writ on recent grounds presented. For the Supreme
Court has made a mistake, in denying writ because intervening circumstances of a substantial or
controlling effect exist.

In support of motion McBride states;

McBride filed for a writ on April 21, 2021, it was placed on docket April 28th 2021.
The Issues raised in McBride's petition were of public importance, to deny McBride's writ of
certiorari is to deny every U.S. Citizen the right to not only have a fair trial, but a right to be
assisted by counsel; which is afforded to we the people, under the U.S. Constitution/sixth
amendment.
Kenneth McBride an African American, was denied counsel and forced to trial pro se, all because
of his race and informa pauperis status, not being able to hire an attorney.

After the courts continued to beat down his cries for assistance, the lower courts forced him to
sign a contract, which he signed under duress, waiving a federal right, which the contract is void
and/or invalid.
The lower courts then found him guilty of a crime he didn't commit because he didn't have the
knowledge to present evidence and or object to illegally obtained evidence from an
impermissibly suggestive show up line, which this Court condemned under Stovall v. Denna,
then punished McBride multiple times for one Crime, in violation of Double Jeopardy provisions.
All said circumstances violated McBride's rights which are upheld by the U.S. Constitution, which
warrants this Supreme Court to intervene for the interest of justice, also it is well settled that
man's rights are inalienable and or indestructible.
So to deny McBride, is to deny every U.S. citizen in America their right to Due process and it
would show Prejudice or bias to McBride because this Court already ruled In favor of this Case
when it was presented in (Gideon v. Wainwright), also the denial would have a substantial or
controlling effect in changing years of well-established federal law pertaining to the rights of the
people being brought to trial.
The message that this court is putting out by denying McBride his relief is that this Court can
trample on the U.S. Constitution anytime it so well please, especially when it is a black man/
African American.
I have given this Court credible information that I, McBride didn't have a fair trial in the State of
Indiana by the lower courts denying me counsel forcing me to trial to represent myself, and the
only relief, which is near unanimity amongst the federal courts, when one is forced to represent
himself is to overturn his conviction, for denying him counsel or substitute counsel {Strickland v.
Washington and Plumlee v. Del Papa.}

10.)Also the respondents are not in opposition to this relief as you can see from the waiver they
filed on May 14th 2021. They said they do not intend to file a response in the matter, which
makes McBride's claims stands as true.
It also made this court's job much easier because no one or party was objecting to the relief
sought by McBride.
Therefore all the court had to do was read McBride's claim and the record McBride submitted
to as evidence and grant relief, since no one was opposing.
13.)So this court must have clearly made a mistake and McBride respectfully request this court to
please rehear or grant rehearing if not for him, at least for the public importance because we
the people have rights that can't be violated. By no "person" and we come to the Supreme
Court of the United States for protection or relief.

Therefore I, McBride, request a rehearing on all issues in writ, all I'm looking for is this court to read
case I presented and ask yourself if you was taken from your family for something you didn't do and the
Courts wasn't giving you the rights they swore to protect but forced you to trial pro se without you
having knowledge of a lawyer all because of the color of your skin, would you want Justice?

Also, I, McBride, respectfully request all relief deemed just and proper.

Signature, pro se

CERTIFICATE OF SERVICE

I Certify, that a true and complete copy of this document, has been served on all parties intended,
through the U.S. postal service by placing document in the hands of prison officials, to be mailed out via
prepaid postage stamp, Address Supreme court office of the Clerk; Washington, D.C. 20543-0001.

Dated:

R- DI

;

Signature Pro se

CERTIFICATION
I, Kenneth McBride, pro se, hereby certify that Petition for rehearing is restricted to the grounds
specified in United States Supreme Court rule 44(2) Intervening Circumstances of a substantial
or controlling effect and is presented in good faith and not for delay.

Signature, Pro se
Kenneth McBride 219635
Address: 1946 west US 40
Greencastle, IN. 46135

